COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE




   OFFICE OF THE
INSPECTOR GENERAL




FOR THE PERIOD ENDING SEPTEMBER 30, 2006
                           u.s. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202)418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                               October 30, 2006
Inspector General




      TO:            Reuben Jeffery In
                     Chairman

      FROM:          A. Roy Lavik
                     Inspector General
                                      Q~ ~
      SUBJECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiannual Report ofthe Office of the Inspector General for the period
      from April 1, 2006 through September 30, 2006. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

      Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION
                              SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                    April 1, 2006 THROUGH September 30, 2006


                             TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(I) and (2) ofthe Act)]                                        1
    AUDITS                                                                                  1
    IN"VESTIGATIONS                                                                         2
    LEGISLATIVE AND REGULATORY REVIEWS                                                      2

OIG RESPONSIBILITIES                                                                        3

OIG RESOURCES                                                                               3

CFTC PROGRAMS AND OPERATIONS                                                                4

COMPLETED WORK                                                                              4
    AUDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)]                   .4
    IN"VESTIGATIONS                                                                         7
    LEGISLATIVE AND REGULATORY REVIEWS                                                      7

AUDIT REPORTS OVER SIX MONTHS OLD                                                           8

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]   8
       CORRECTIVE ACTION COMPLETED                                                          8
      MANAGEMENT DECISION NOT MADE [including a summary of each audit
      report issued before the commencement of the reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation ofthe reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(1O)
      of the Act)]                                                                         8

SUMMARY OF MATTERS REFERRED TO PROSECUTNE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                           8

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning infonnation or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) ofthe Act)                       8

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(11) of the Act)]:                         8

INSPECTOR GENERAL DISAGREEMENT [including infonnation concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                              8

·CURRENT AUDITS                                                                           9

GAO LIAISON                                                                              12

STRATEGIC PLAN                                                                           13

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL.                                          .18

TABLE 1-- REPORTS ISSUED WITH QUESTIONED COSTS                  .
     (Mandated by Section 5(a)(8) of the Act)                                            19

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act) :                            20




                                             11
                    INDEX OF IG ACT REPORTING
                          REQUIREMENTS

 Section 5(a)(1)                                 1

 Section 5{a)(2)                                 1

 Section 5(a)(3)                                8

 Section 5(a)(4)                                 8

 Section 5(a)(5)                                 8

 Section 5(a)(6)                                4

. Section 5(a)(7)                               4

 Section 5(a)(8)                                19

 Section 5(a)(9)                                20

 Section 5(a)(10)                                8

 Section 5(a)(11)                                8

 Section 5(a)(12)                               :8




                               111
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives ofthe Office of the Inspector General (DIG) ofthe Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's DIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 9.)

       Audit of CFTC Financial Statements for Fiscal Year 2006. In FY 2002, Congress passed
       the Accountability of Tax Dollars Act. The Act requires the CFTC, along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       DIG has engaged a contractor to provide the audit effort required to enable the contractor
       to render an opinion on the agency's financial statements for fiscal year 2006 in
       accordance with generally accepted auditing standards, Government Auditing Standards,
       and OMB Bulletin 01-02. (For additional details, see page 9.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting performance goals, and report annually on actual performance compared to
       goals. The first report was prepared in March 2000. The objective of this review is to
       determine how effectively the Commission is complying with GPRA's terms~ This
       includes an examination ofthe performance measures devised by the Commission and
       the systems used for gathering the data to report on those performance measures. (For
       additional details, see page 11.)

Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits beginning on page 4.)

       Review of the Need for a Los Angeles Office. In the three years since the closing of the
       Western Regional Office of the Commodity Futures Trading Commission in Los
       Angeles, civil injunctive and administrative cases arising in the states formerly served by


                                                 1
       the Western Regional Office have been handled by staff from CFTC's Waslllngton,
       Chicago and Kansas City offices. The objective of this review was to determine whether
       similar cases which may arise in that area in the future could more efficiently and
       effectively be handled by a CFTC office in Los Angeles. (For additional details, see page
       5.)

       Audit of Compliance with the Federal Managers' Financial Integrity Act. In support of
       OMB Circular A-123 (Revised), the Inspector General evaluates, provides technical
       assistance, and advises the agency head as to whether the agency's review and evaluation
       process was conducted in accordance with the circular's requirements. (For additional
       details, see page 5.)

       Evaluation of the CFTC Information Security Program and Practices, FISMA. The
       Federal Information Security Management Act (FISMA) requires the Inspector General
       or his designee to perform annual independent evaluations ofthe information security
       program and practices of the agency. (For additional details, see page 6.)

       Assessing CFTC Efforts to Protect Sensitive mformation. As part of a government-wide
       effort, the Inspector General assessed the CFTC's compliance with OMB Memorandum
       M-06-16, Protection of Sensitive Agency Information, relating to security controls for
       personally identifiable information. (For additional details, see page 6.)


INVESTIGATIONS

        The mspector General Act of 1978, as amended, provides that the mspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

       No investigations were pending as of the beginning of the reporting period, and the OIG
opened no investigations during the period. (See the section on investigations beginning on
page 7.)

LEGISLATIVE AND REGULATORY REVIE·WS

        The OIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.



                                                2
        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

        The Inspector General continues to be involved in legislative activities. Congressional
staff were briefed about the various IG issues.



                              OIG RESPONSIBILITIES

       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (p.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG was established to create
an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

       Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review oflegislative and regulatory proposals and the
monitoring of internal CFTC operations.



                                       OIG RESOURCES

        The OIG consists ofthe Inspector General, two professional staff members, and a
secretary. All positions have been filled since January 2,2000. The present Inspector General
assumed his position on October 7, 1990.



                                                3
        The OIG, on December 4, 1989, signed a Memorandum of Understanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the OIG with OGC legal services. An OGC staff member has been assigned to provide
such services to the OIG on an as-needed basis.



                  CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage of the Commodity Futures
Modernization Act of2000 (CFMA).

         The CFMA transformed the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.



                                COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.

       The purpose ofthese audits is to ensure that:

       •   Funds have been expended in a manner consistent with related laws, regulations, and
           policies;

       •   Resources have been managed effectively and efficiently;




                                                4
          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period:


1.        Review of the Need for a Los Angeles Office

Objective.

         In the three years since the closing ofthe Western Regional Office (WRO) of the
Commodity Futures Trading Commission in Los Angeles, civil injunctive and administrative
cases arising in the states fonnerly served by the Western Regional Office have been handled by
staff from CFTC's Washington, Chicago and Kansas City offices. The objective of this review
was to determine whether similar cases which may arise in that area in the future could more
efficiently and effectively be handled by a CFTC office in Los Angeles.

Status.

        This review has disclosed that from FY 1993 through FY 2003, WRO, with
approximately 12 percent ofthe Division of Enforcement Staff, filed 53 (13.15%) ofthe
Division of Enforcement's 403 injunctive and administrative cases; that the variety of cases, as
represented by the MASC assigned, was roughly comparable in WRO to that of the entire
division; that the number of injunctive cases filed by the Division of Enforcement in California
since the closing ofWRO is comparable to the number filed prior to the closure; that the quality
of staff in WRO was comparable to that found in the other CFTC regional offices; and that the
principal problems faced by WRO were a lack of capable local Enforcement leadership and the
centralization of the headquarters review process.

            As a result of this review, the Office of the Inspector General recommended that the
Commission consider reestablishing a Western Regional Office in Los Angeles and involve the
Chainnan and the Chief of Staff in the selection of the head of the office to insure that all
prospective Regional Counsels have, in addition to litigation expertise, experience in and an
aptitude for managing people and other resources.

2.        Audit of Compliance with the Federal Managers' Financial Integrity Act

Objective.

       In support ofOMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance, and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.




                                                   5
Status.

        For the fifth year, the Commission has been working on a new approach to satisfying the
requirements of Circular A-123 (Revised). The OIG reviewed internal control materials
produced by the Commission and provided comments. The OIG reported the results of its
review of the submissions to the Chairman in its annual assurance letters. The OIG offered its
services to the Commission as advisor and consultant on conducting and reporting on internal
control reviews.

3.        Evaluation of the CFfC Information Security Program and Practices, FISMA

Objective.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Status.

        To provide a comprehensive review of the Commission's security program, the Office of
Information and Technology Services (OITS) and OIG worked jointly in gathering and
interpreting information relating to the CFTC information security program. Using the
information supplied by OITS staff and the program managers, the Inspector General reviewed
and analyzed the information and responded in tabular form to the questions raised by the OMB
Guidance. Results ofthis effort were transmitted to the CFTC's Chief Information Officer (CIO)
on September 13,2006 for combination with the CIO's assessment and inclusion in the
Chairman's report to OMB.

4.        Assessing CFTC Efforts to Protect Sensitive Information

Objective.

        As part of a government-wide effort, the Inspector General assessed the CFTC's
compliance with OMB Memorandum M-06-16, Protection of Sensitive Agency Information,
relating to security controls for personally identifiable information.

Status.

        The Office of the Inspector administered a PCIEIECIE developed data collection
instrument designed to assess the agency's compliance with OMB Memorandum M-06-16,
Protection of Sensitive Agency Information. A final report containing the results of the data
collection process were transmitted to the PCIEIECIE on September 13,2006 for inclusion in the
government wide data collection effort.




                                               6
INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

      No investigations were pending as of the beginning ofthe reporting period, and the OIG
opened no investigations during the period.


LEGISLATNE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) ofthe Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews selected exchange rule proposals and
changes.

      The OIG has notified the responsible Divisions as to any concerns with draft and final
documents relating to legislation, rules or investigations. Formal comments were not filed with
the Commission.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

RULE REVIEWS INITIATED THIS REPORTING PERIOD

        The OIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship of the Commission to the futures industry in many regards and the rules sought
to reflect this change.


Legislative Activities

      The Inspector General continues to be involved in legislative activities and contact has
been made with congressional staff on various IG issues.




                                               7
              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

MANAGEMENT DECISION NOT MADE

        There were no instances of a report issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.



                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTIVE AUTHORITIES
       No matters were referred to prosecutive authorities during the reporting period.



                SUMMARY OF EACH REPORT MADE TO
                      THE AGENCY HEAD
        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided.



                  REVISED MANAGEMENT DECISIONS
       No management decisions were revised during the reporting period.



                INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on OIG
recommendations.


                                                8
                                      CURRENT AUDITS

           The audit agenda and priorities for the OIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability ofthe organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary of progress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.         Audit of CFTC Financial Statements for Fiscal Year 2006

Objectives.

       In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for Fiscal Year
2006 in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.

The specific objectives ofthis audit are to determine whether:

           (1) The financial statements present fairly the financial position ofthe Commodity
           Futures Trading Commission in accordance with generally accepted accounting
           principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
           (FASAB). The six financial statements, along with all corresponding notes to be audited



                                                    9
          include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
          Position; (d) Statement of Budgetary Resources; (e) Statement of Financing; and (f)
          Statement of Custodial Activity.

          (2) Management's assertions about the effectiveness of its internal controls for achieving
          internal control objectives described in AU Section 319 and the Federal Managers
          Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
          shall make this determination in part by obtaining an understanding ofthe internal control
          policies and procedures and assessing the level of control risk relevant to all significant
          cycles, classes of transactions, and account balances. For those significant control
          policies and procedures that have been properly designed and placed in operation, the
          contractor shall perform sufficient tests to provide reasonable assurance as to whether the
          controls are effective and working as designed.

          The independent public accountant (IPA) will limit its internal control testing to those
          controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,
          the IPA is not required to test all internal controls relevant to operating objectives as
          broadly defined by the Federal Manager's Financial Integrity Act of 1982, such as those
          controls relevant to achieving efficient operations.

          With respect to internal controls related to performance measures reported in the
          accountability report, the IPA will obtain an understanding of the design of significant
          internal controls relating to the existence and completeness assertions, as required by
          OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
          controls over reported performance measures.

          (3) The agency has complied with selected provisions oflaws and regulations identified
          by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
          a direct and material effect on the determination of financial statement amounts. The IPA
          will limit its tests of compliance to these provisions and need not test compliance with all
          laws and regulations applicable to the CFTC.

          (4) The information in the "Overview of the Reporting Entity" is consistent in content
          and presentation with the information in the principal statements and the related notes
          consistent with Statements on Auditing Standards (SAS) No.8, Other Information in
          Documents Containing Audited Financial Statements.

Status.

        An independent public accounting firm was first selected on January 15,2004 to
complete the Fiscal Year 2004 CFTC Financial Statement Audit. Their audit report was
delivered on November 18, 2004. The same firm under an option year ofthe contract rendered
an opinion on November 14,2005 on the agency's financial statements for Fiscal Year 2005.

       On February 1,2006, the Fiscal Year 2006 audit plan was delivered to the Office of the
Inspector General. The audit plan was reviewed, modified, and accepted on February 17, 2006.



                                                   10
On March 6, 2006, the Fiscal Year 2006 audit began with a meeting with senior agency
managers. The final audit report is to be delivered to the Office of the Inspector General on
November 10, 2006.

2.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting performance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This includes an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

       In response to Congressional interest, the OIG consulted with and advised the
Commission's operating divisions concerning GPRA requirements. The Office of the Inspector
General reviewed the Commission's FY 2001 through FY 2005 Annual Performance Plans
before each was submitted to Congress. The OIG will continue to review the Annual
Performance Plan that is included in the annual budget estimate which is submitted to the Office
of Management and Budget.

        From FY 1999 through FY 2003, Congress each year required the agency to submit a
report on the agency's performance results by strategic goal. The OIG selectively reviewed
these reports after they were submitted to Congress.

        Beginning in FY 2004, in response to an OMB directive, the agency submitted a report
combining the information contained in the annual performance reports with the agency's
audited financial statements. This combined report is entitled the Performance and
Accountability Report (PAR). The OIG reviewed the Peformance and Accountability Report
prior to its being submitted to the Office of Management and Budget and the Congress.

        For FY 2005, the OIG concluded that the agency had made improvements in defining its
goals and identifying measures for reaching its stated goals. Using information gathered during
the review ofthese documents, the Inspector General prepared and submitted in November 2005
its annual Assessment of the Most Serious Management Challenges Facing the CFTC to the
Office of Management and Budget.

       For FY 2006, the OIG will review the agency's FY 2006 PAR and prepare its annual
assessment of the most serious management challenges facing the CFTC.




                                                11
                                      GAO LIAISON

        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
and the methods of reaching the goals so as to minimize the requirements placed on CFTC
resources.




                                                12
                                 STRATEGIC PLAN
                                     FOR THE
                         OFFICE OF THE INSPECTOR GENERAL


        INTRODUCTION

                The Office ofthe Inspector General (OIG) in the Commodity Futures Trading
        Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (p.L. 95-
        452), as amended by the Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG
        was established to create an independent unit to:

               •   Promote economy, efficiency, and effectiveness in the administration of CFTC
                   programs and operations and detect and prevent fraud, waste, and abuse in such
                   programs and operations;

               •   Conduct and supervise audits and investigations relating to the administration of
                   CFTC programs and operations;

               •   Review existing and proposed legislation, regulations, and exchange rules and make
                   recommendations concerning their impact on the economy and efficiency of CFTC
                   programs and operations or the prevention and detection of fraud and abuse; and

               •   Keep the Chairman and Congress fully informed about any problems or deficiencies
                   in the administration of CFTC programs and operations and provide
                   recommendations for correction of these problems or deficiencies.

                Accordingly, the OIG has established three programs to carry out its responsibilities:
        audit, investigation, and legislative and regulatory review. A summary of those programs
        follows.

.   \
        AUDIT

                The primary objectives ofthe OIG are to promote long-term efficiency and effectiveness
        in the administration and operation of the Commission and to protect against fraud and abuse.

                The key to effectively and efficiently managing the CFTC is information. Top level
        managers and decision makers require a steady stream of organized data on the effects of their
        policy decisions and resource allocations on the operations of the Commission. Once having
        made the decision to change resource levels or policy, managers must receive accurate and
        timely reports of the operational effects of their decision so they can determine if the change is in
        the direction and of the magnitude predicted. In the absence of such information, top level
        managers cannot adequately perform their jobs.




                                                         13
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office of the Secretariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them
or following them in the process. Each office treated the case as if it were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. If the Chairman wanted to know how mlich time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management ofCFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIGwill recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the infonnation requirements of
the Commission, the OIG has been following the Commission's development of measures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning



                                                 14
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
OIG believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the OIG; a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized on the
back cover ofthis semiannual report.

       Because ofthe reactive nature ofthe OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a clear link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                15
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audits are performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support ofOMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFfC Information Security Program and Practices, FISMA

      The Federal Information Security Management Act (FISMA) requires the Inspector
General or his designee to perform annual independent evaluations ofthe information security
program and practices of the agency.

Audit of CFTC Financial Statements

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on determining whether all managerial levels engaged in a process can track the progress
of their various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

         These audits will entail a cataloging and description of all of the manual and automated
systems used by a program to gather information on its use of resources, the results ofthe
devotion of those resources (including definitions of measurements of accomplishment), and the
reporting of results and associated costs to the upper level managers in the Division and to the
Chairman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
cost/beneficial manner.



                                                16
        Ifrecommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the review ofthe
management and operation of the agency and compliance with Congressional mandates.

RESOURCESREQumED

        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. One-half staff year of effort will be devoted over each of the next five years to the
compliance audits described above. The "Annual Audits" are expected to consume
approximately one-half staff year per year.




                                                17
                      CONTACTING THE OFFICE OF THE
                          INSPECTOR GENERAL


        The OIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                             18
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (Aprill, 2006 - September 30,2006)

                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
C.   For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     ( ii )   dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                              19
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (Aprill, 2006 - September 30,2006)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o             o
B.   Which were issued during the reporting
     period                                          o             o
     Subtotals (A + B)                               o             o
c.   For which a management decision was
     made during the reporting period                o             o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o             o
     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                             o             o
D.   For which no management decision
     has been made by the end ofthe
     reporting period                                o             o




                                              20
       The Inspector General
       needs yourhelp to
       assure the integrity of
       CFTC's programs.



Report FRAUD, WASTE
 or ABUSE to' the.
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
       .Washington, D.C. 20581
